No.

2H-/VS0

\

i. * i i

supreme Court, U.S.
FILED

APR 1 3 2021

IN THE

OFFICE OF THE CLFRir

SUPREME COURT OF THE UNITED STATES

MICHAEL C. MURPHY

— PETITIONER
(Your Name)

vs.
ESTATE OF GLORIA KAY

— RESPONDENT(S)

MURPHY-WALLACE
ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF APPEALS OF TENNESSEE

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Michael C. Murphy
(Your Name)
P.O.Box 1365

(Address)
Morristown,TN 37816
(City, State, Zip Code)
(423) 581-1022

(Phone Number)

QUESTION(S) PRESENTED

Whether the Tennessee state trial and appellate courts are
using a constitutionally vague procedural rule,Tenn.R.Civ.
P. 59.04,-to deny citizens an opportunity to be heard and
thereby to block access to justice?

i

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
None.

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A Decision of Court of Appeals of Tennessee

APPENDIX B Decision of State Trial Court of Tennessee

APPENDIX C Decision of Supreme Court of Tennessee
APPENDIX D
APPENDIX E
APPENDIX F

iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
526 (Tenn. 2004)

5

Gassaway v. Patty Tenn. App. 604 S.W.2 d 60

5

Legens v. Lecornu W2013-018-COA-R3-CV,
2014 WL 2922358(Ct. App. June 26,2014)

5

Parks v. MidAtlantic Finance Co. Inc. 343 S.W.3 d 792
(Tenn. Ct. App. 2011)

5

Albert v. Frye 145 S.W.3 d

STATUTES AND RULES
Tennessee Rule of Civil Procedure 59.04

4,5

Tennessee Rule of Civil Procedure 59.01

4,5

Tennessee Rule of Appellate Procedure 4(b)

4,5

OTHER
None.

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ >3 is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was 11 -1 6-20
.(See March 19,2020
A copy of that decision appears at Appendix
Order,589 U.S.)

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Tennessee Rule of Civil Procedure 59.04

4,5

Tennessee Rule of Civil Procedure 59.01

4,5

Tennessee Rule of Appellate Procedure 4(b)

4,5

3

STATEMENT OF THE CASE
A jury trial concerning an estate will contest resulted in
Defendant prevailing.Plaintiff Michael C. Murphy filed a Motion
for a New Trial on September 13,2019,alleging among other errors
that the state trial court allowed an unexcused Alternate Juror
to deliberate in the jury room with the impaneled jury,as well as
upholding the validity of a marriage in Tennessee which occurred
prior to the Virginia divorce decree of one party becoming final.
The trial court denied the motion on December 19,2019.
A Motion to Alter or Amend was filed by Plaintiff on January
21,2020,based also upon Tenn.R.Civ.P.59.04 and 59.01,and Tenn.R.
App. 4(a).,which was denied on February 18,2020.An appeal was
taken to the state court of appeals,and on August 11,2020,it
decided that it lacked jurisdiction by finding that the Tenn.R.
Civ.P.59.04 was supposedly a "motion to reconsider" and therefore
did not toll the appeal period.The state Supreme Court declined
to grant an appeal on November 16,2020.
This matter is now before this Honorable United States
Supreme Court.

4

REASONS FOR GRANTING THE PETITION
The Tennessee state courts of appeal and the trial courts
use Tenn.R.Civ.P. 59.04 as a systemic subjective means to deny
citizens access before the courts by declaring willy-nilly that
these motions are "Motions for Reconsideration" and therefore
do not qualify as Motions to Alter or Amend and subsequently
do not toll the appeal period under Tenn.R.Civ.P. 59.01 and
Tenn.R.App. 4(b) leaving participants without any recourse to
be heard,it is respectfully submitted.
Allowing state courts to act in this manner goes beyond
the particular facts and parties involved herein,and is an
issue of national importance to the public and effects others
similarly situated.
There is no logic or justice in state decisions such as
Legens v. Lecoirnu W201 3-01 800-COA-R3-CV, 201 4 WL 2922358
(Ct. App. June 26,2014) and Albert v. Frye 145 S.W.3 d 526(Tenn.
2004) that seek to deny the opportunity to be heard and
considered on appeal. At the same time,state decisions run
counter and declare that a court should exercise its discretion
in favor of allowing a case to be heard on its merits in Parks v.
MidAtlantic Finance Co. Inc. 343 S.W.3 d 792(Tenn.Ct.App. 2011),
alludes to the fact of the state Supreme Court's policy
and
of liberality in resolving doubt as to the proper construction of
statues and rules regulating appeals in favor of the right of
appeal in Gassaway v. Patty Tenn. App. 604 S.W.2 d 60

5

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

mold c.
Date:

April 13,2021

6

